Supreme Court, U.S.
FILED

No,

2-o-iuz

MAY 1 7 2021
OFFICE OF THE CLERK

IN THE

SUPREME COURT OF THE UNITED STATES

DANIEL TEKLE,
PETITIONER,
VS.
STATE OF VIRGINIA,
RESPONDENT®

ON THE PETITION FOR A WRIT OF CENTIORARI TO
UNITED STATES OF COURT OF APPEALS FOR THE FOURTH CIRCUIT
PETITION FOR WRIT OF CENTIORARI

DANIEL TEKLE
2500 N. VAN DORN STREET #202
ALEXANDRIA, VA 22302
Telephone: 703-278'3139E-Mail:
Daniel tekle@vahoo.com

1

I
1

QUESTIONS) PRESENTED/ISSUE PRESENTED

Whether “The right of people to be secure in their persons, houses, papers and

effects, against unreasonable searches and seizers, shall not be violated, and no
warrants shall issue, but upon probable cause, supported by oath or affirmation, and
particularly describing the place to be searched, and the person or things to be
seized.”4th Amendment. The constitution placed a formidable barriers to an officer
to access my property without a court warrant. How then I become an offender while
an officer violated my constitutional right by pulling me out of my own vehicle
without warrant and be able to charge me? United States v. Di Re, 332 U.S. 581
(1948).” A search is not made legal by what it turns up; in law, it is good or bad when
it starts, and does not change character from its success. P. 332 U. S. 595 ” “No federal
statute controls the validity of an arrest without warrant in a case such as this.
Pp. 332 U. S. 590-591”. A police officer does not have authority to knock on my closed
vehicle without warrant no matter whether the crime committed or not?
2

whether

any attempted exercise of a police power which resulting in denial

of equal protection is invalid”? “AD persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of United States and of the State
wherein reside. No State shall make or enforce any law which shaU abridge the
privileges or immunities of citizens of United States.’ nor shaD any State deprive any
person of life, bberty or property; without due process of law, nor deny to any person
within its jurisdiction the equal protection of laws.” 14th amendment. Am I not
discriminated when the law enforcement officer denied to disclose his identity to me
2

would be able to implement the state law without discrimination? When I asked
detective multiple times whether the person I am communicating a police officer, he
denied to disclose his Identity. The officer violated equal protection of the law? ”...the
least deserving as well as the most virtuous.” When I am asking his identity I begging
the detective to give me the same kind of protection as he pretended to protect. Here
is what I asked “I wanted you to reassure me not about beer but are you 100% sure
there is no setup me in this sting? I mean I have seen ABC video before and it leave
me nervous?” Oct.30, 2016 at 8-57PM. Here and in the subsequent interaction, I am
begging for equal protection of law which he failed. Thus the court lacks the subject
matter jurisdiction.
3

whether the 4th amendment protect my life, liberty and property, if I was in

my own property? Can a person be convicted without being in a crime scene? The
simple answer is, “no.” One cannot be convicted of a crime without being in crime
scene or evidence. Without evidence and not being in crime scene one cannot be
neither convicted of a state nor a federal crime. Being in my own vehicle is a crime?
Was not my constitutional right protected in my own vehicle? If there is no evidence
against you, under the law, it simply is not possible for the prosecutor’s office to
obtain a conviction at trial. Any evidence gained in violation of 4th amendment is in
admissible. The Government lacks power to constitutionally to prosecute me because
the claim, challenged the government’s power to criminalize petitioner’s (admitted)
conduct.” Any evidence gathered with unlawful access to me and my property is in
admissible. In this case in violation of my constitutional rights of 4th amendment.
3

The claim is called into question the government’s power to constitutionally
prosecute him because the claim, challenged the government’s power to criminalize
petitioner’s (admitted) conduct.”
4

Whether the constitution defined state officials “any person”? A police officer

is not qualify the definition of “any person”. Constitution of united stated defined
those who work for state authorities either legislature, executive, or judicial
Authorities, officer or agent of State. Then how a detective be qualified both “any
person” and agent of State?
I was charged according to Virginia Code 18.2-374-3 “It shall be unlawful for any
person 18 years of age or older to use a communication system, including but not
limited to computers or computer networks or bulletin boards, or any other electronic
means, for purpose of soliciting any person he knows or has a reason to believe is a
child less than 18 years of age for...”.Thus the charge code is invalid and the charge
code is void.” A void judgment mav be attacked at anv time bv a person whose rights
are affected. See El-Kareh v. Texas Alcoholic Beverage Comm'n, 874 S.W.2d 192, 194
(Tex. App."Houston [14th Diet.] 1994, no writ); see also Evans v. C. Woods, Inc., No.
12-99-00153-CV, 1999 WL 787399, at *1 (Tex. App.-Tyler Aug. 30, 1999, no pet. h.) ”
5

Whether the state permitted to discriminate citizens by age or sex? The officer

of state posted an ad on adult entertainment section of craigslist titled “teen seeks
LTR with older W4M”.The title of the ad discriminates society both by age and sex.
When an officer purposefully and deliberately targeting older men out of population
whether 14th amendment of equal protection of laws and civil rights action 1983
4

violated? The State Statue does not target older citizens over younger. It states that
“teen seeks LTR with older W4M”. “The element of intentional or purposeful
discrimination is necessary to establish a denial of equal protection of Law. This may
be shown, inter alia, by extrinsic evidence establishing a discriminatory design to
favor one individual or class over another.” @ Civil rights act 8. “In the landmark
case Yick Wo v. Hopkins, 83 the Supreme Court (118 US 356 - Supreme Court 1886)
held that the Equal Protection Clause of the Fourteenth Amendment84 proscribes the
discriminatory enforcement of a facially neutral law.85 In a passage quoted by many
courts a century later, the Court stated* Though the law itself be fair on its face and
impartial in appearance, yet, if it is applied and administered by public authority
with an evil eye and an unequal hand, so as practically to make unjust and illegal
discriminations between persons in similar circumstances, material to their rights,
the denial of equal justice is still within the prohibition of the Constitution.86 In
summary, Yick Wo prohibits state actors from wielding a facially neutral law as if it
were discriminatory on its face by selectively enforcing it against a certain class of
people.87 “While Yick Wo involved the narrower issue of the unequal application of
two city ordinances,90 the Equal Protection Clause of the Fourteenth Amendment
applies to “every form of state action, whether legislative, executive, or judicial.”91 In
line with this principle, the Supreme Court later indicated that discriminatory
enforcement is also a defense to a criminal charge.92 If the criminal defendant
successfully establishes this defense, the court must dismiss the case.93”- Thus facts
laid out here so waiting answer for justice void the judgment.

5

II

LIST OF PARTIES AND RELATED CASES

[ ] AH parties appear in the caption of the case on the cover page.
BG All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows1-Loudoun county Circuit Court
2-The Supreme Court of Virginia
3‘United States District Court of the Eastern district of the VirginiaRichmond Division
4-United States District court of Appeals for the fourth Circuit-Richmond
Division
III

TABLE OF CONTENTS

A OPINIONS BELOW

7

B JURISDICTIONS

8

C CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

9

D STATEMENTS OF THE CASE

11

E REASONS FOR GRANTING THE WRIT

11

F CONCLUSION

12

6

IV INDEX TO APPENDICES
APPENDIX A

Decision of United States court of Appeals 4th Circuit.

APPENDIX B

Decision of United States District Court for Eastern District of

Virginia

A

B

APPENDIX C

Decision of Supreme Court of Virginia- dismissed.

C

APPENDIX D

Decision of State Circuit Court-Sentence

D

APPENDIX F

Facts/exhibits.
V

E

TABLE OF AUTHORITIES CITED
CASES

1

Mitchell V. United States

313 US 80, 85 L ED 1201, 615 CT 873(1941)

2

Class V. United States

138 S. CT 798, U.S. Supreme Court 2017

3

Virginia code 15-2-1704

Power and duties of Police Officer

5

United States V. Montilla

870 F.2d 549 (U.S. Appeals 9th Cir.1989)

7

YickWoV.Hopkins,

118 US 356-Supreme Court 1886

8

United States v. Di Re

332 U.S. 581 (1948)

9

El-Kareh v. Texas Alcoholic Beverage Comm'n,

10

Weisberg v. Minnesota

874 S.W.2d 192,194

29 F.3d 1271, 1279 (8th Cir. 1994)

7

11

United States v. Broce

488 U.S. 563, 575,109 S. Ct. 757,102

L.Ed.2d 927 (1989)
STATUTES
i

Omnibus Crime Control and Safe Streets Act of 1968
(Amended Crime Control)

2 42 U.S. Code § 1983. Civil action for deprivation of Rights

VIOLATION OF CONSTITUTIONAL RIGHTS
United States Constitution, Amendment I
United States Constitution, Amendment IV
United States Constitution, Amendment V
United States Constitution, Amendment XIV

8

IN THE
SUPREME COURT OF UNITED STATES
PETITION FOR WRIT OF CERTIORAI
Petitioner respectfully prays that a writ for certiorari issue to review the judgment
below.
VI

OPINION BELOW

[ ] For cases from Federal courts*
The opinion of the United States Court of Appeals appears at appendix
A
to the petition and is
[ ] Reported at_______________________________________

.»or,

[ ] Has been designated for publication but is not yet reported.

• or,

[X] is unpublished.
The opinion of the United States Court of District appears at appendix
B
to the petition and is
[ ] Reported at_______________________________________

or,

[ ] Has been designated for publication but is not yet reported.

• or,

[ ] is unpublished.
[ ] For cases from state Court:
The opinion of the highest State Courts to review the merits appears at
appendix C
to the petition and is
[ ] Reported at________________________________________

.»or,

[ ] Has been designated for publication but is not yet reported

• or,

[ ] Is unpublished.
The opinion of the Circuit Court of Loudoun County of Commonwealth of
Virginia Court appears at appendix _D____ to the petition and is
t ] Reported at_______________________________________
[ ] Has been designated for publication but is not yet reported
9

.> or,
•or,

[ ] is unpublished.
VII

JURISDICTION

[ ] For cases from Federal courtThe date on which the United States Court Appeals decided my case
was
22nd February. 2021
[X] No petition for rehearing was timely filed in my case.
[ ] A timely hearing for rehearing was denied by United States Court of
On the following date.

j and a copy of the order denying

Rehearing appears at appendix________ .
[ ] An extension of time to file the petition for a writ of certiorari was granted
To and including____

(date) on

(date) in

Application No.__ A.
The Jurisdiction of this court invoked under 28.U.S. §1254(1)
[ ] For cases from State courtsThe date on which the Highest state Court decided my case was 8th August.
2018. A copy of that decision appear at Appendix_C_
[] A timely petition for rehearing there after denied on the following date:
______________ _ and a copy of that order denying rehearing appears
At appendix________________ .
f ] An extension of time to file the petition for writ for certiorari was granted
to
And including

(date) on

(date) in application

No.____ A
The Jurisdiction of this court invoked under 28.U.S. § 1257(A)

10

VIII

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

United States Constitution* Amendment I
“Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof or abridging the freedom of speech, or of press,
or the right of people peaceably to assemble, and to petition the Government for a
redress of grievances ”
United States Constitution- Amendment IV
“The right of people to be secure in their persons, houses, papers and effects,
against unreasonable searches and seizers, shall not be violated, and no warrants
shall issue, but upon probable cause, supported by oath or affirmation,
particularly describing the place to be searched, and the person or things to be
seized”
United States Constitution- Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising in the
land or naval forces, or in the militia, when in actual service in time of war or public
danger; nor shall any person be subject for the same offense to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself nor be deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without just compensation”
11

United States Constitution- Amendment XIV
“All persons bora or naturalized in the United States and subject to the
jurisdiction thereof, are citizens of United States and of the State wherein reside. No
State shall make or enforce any law which shall abridge the privileges or immunities
of citizens of United States; nor shall any State deprive any person of life, liberty or
property* without due process of law, nor deny to any person within its jurisdiction
the equal protection of laws.”
Alleging violation of 42 U.S.C. $ 1983. on equal protection grounds
“The element of intentional or purposeful discrimination is necessary to establish a
denial of equal protection of Law. This may be shown, inter alia, by extrinsic evidence
establishing a discriminatory design to favor one individual or class over another. @
Civil Rights Act law 8. More than three times 1 begged the detective to identify
himself, he chose to lie thus he applied the law with partiality- the least deserving as
well as the most virtuous. “Though the law itself be fair on its face, and impartial in
appearance, yet, if it is applied and administered by public authority with an evil eye
and an unequal [l 18 U.S. 356,374] hand, so as practically to make unjust and illegal
discriminations between persons in similar circumstances, material to their rights,
the denial of equal justice is still within the prohibition of the constitution ” The post
targeted men with old age only from society. Thus targeted men with specific age
group as crime could have committed with anyone including any age men and female.
Thus the charge itself is violated equal protection clause and invalid.

12

IX

STATEMENT OF THE CASE

Though I was intrigued with the situation and encouragement from Detective, my
conscience alerted me and refused to get into the house the detective setup. Instead
I decided to leave the public parking lot without meeting the lured personality. After
realizing my refusal he detective and three other officers in violation of my
constitutional rights knocked on my car window as I am about to leave the parking
lot. Any evidence gathered in violation of 4th amendment is inadmissible. All my
petition denied because of my plea except the Appeals Court. The issue I raised is the
State violated my constitution rights.” “...a plea of guilty to a charge does not waive
a claim that—judged on its face—the charge is one which the State may not
constitutionally prosecute.” Menna, 423 U. S., at 63, 96 S. Ct. 241, 46 L. Ed. 2d 195,
and n. 2. Menna’s claim amounted to a claim that “the State may not convict” him
“no matter how validly his factual guilt is established.” Ibid. Menna’s “guilty plea,
therefore, [did] not bar the claim ” Ibid.” See also Class V. United States 138 S. ct
798, N.3 (Supreme Court of U.S 2017), United States V. Montilla , 870 F.2d 549,
February,1989 (U.S. Cir. Court 1989), United States V. Drew, 200 F.3d. 871 (U.S.
Appeals D.C. 1999).
X REASONS FOR GRANTING THE PETITION
I, Daniel Tekle, currently released after serving 5 years from Haynesville
Correctional Center-Virginia and on Seven years’ probation. Currently locked in my
own house with a curfew set from 10:00PM to 6:00AM and my movement tracked
24/7, ineligible for work in other word I am destined for death. In order to live, have
13

to eat and work. I filed the appeal on time in extraordinary circumstance. And
Appeal court violated due process of 5th amendment in extra ordinary circumstances
of COVID19, State Governors Emergency declaration and Intuitional Lockdown. I
petition respectfully this court for writ of certiorari to review the judgement of United
States District Court of Appeals for the 4th Circuit or dismiss/void based on multiple
violation of my constitutional rights as State lacked Jurisdiction.
XI

CONCLUSION

For the forging reason: Any evidence gathered in violation of 4th amendment is
inadmissible. The case has national repercussion about the truth of us went through
injustice. Throughout history police in collaboration with prosecutors purposefully
deceit an innocent citizens then threatened in cynical way offered guilty plea as a
leverage, leave the victim’s misery -after my background check I am ineligible to be
hired. In other words I am dead living to serve the State to create job opportunity for
probation officer (State). Then how a person live without work?
Most of counsel representing the victims chose to work for government as a paid
participant to trick or deceit their own client. My counsel pre-planned, exploited my
lack of knowledge and absence of recorded material of conversation or witness in
between us. He used his privilege to prey the innocent. He lied to me that he had
facts and evidences to overcome if I sign a guilty plea later to deny. Later he revealed
his true identity by becoming co-prosecutor of providing case-log compliment Exh-1
to prosecutor in response to my petition by Attorney General dated September 9,
2019. Being an experienced counsel on one hand counselling for plea bargain 5“30
14

years and on other hand a sentencing guide line of 1 year and 9 months to 4 years
and 10 months. Am 1 the only one complaining this kind of counselling? Later when
confronted they automatically resort to his lies. By that time it’s too late and the
existing system throw the burden on the victim by then counsel was out of picture. I
would suggest to this court within client counsel confidentiality, those conversation
should be recorded and in the case discrepancy, the record needs to be presented.
When the victim contends the truth the court squarely puts on the victim.
When the state purposefully ignored the constitution of United States and actively
engaged in collaboration with law enforcement procuring citizens from market place
to fund law enforcement, to pay for jails run by judges and to recruit cheap labor to
run their prison industrial enterprises with $.23 per hour for the benefit of few in
hierarchy. Today over 90% state Government and those linked to state fund served
with prison products. Having those people in their custody with lies and cheat, rob
the Federal funds for the pocket of few. As an evidence a person with BA and MBA
forced to attend GED in their custody. Who can challenge them? Instead of
unravelling the truth and giving justice to those who deserve, they engaged in lies,
deceits, manipulations and threats as admitted by Attorney General. When
challenged with facts instead of digging the truth relay on unrelated facts as “In
conducting the forgoing inquiry, the representations of defendant, his lawyer, and
prosecutor during the plea proceeding, “as well as any finding made by the judge
accepting the plea, constitute a formidable barrier in any subsequent collateral
proceedings.”Blackledge Allison, 431 U.S. 63, 73-74 (1977).” A response from
15

Attorney General on September 9, 2019 page 21 #53.Now the only tool left Plea to
them.
Here is the fact in today's prison system. A single year data revealed that “Nearly
80,000 people were defendants in federal criminal cases in fiscal 2018, hut just 2% of
them went to trial. The overwhelming majority (90%) pleaded guilty instead, while
the remaining 8% had their cases dismissed, according to a Pew Research Center
analysis of data collected by the federal judiciary.” BY JOHN GRAMLICH. Justice
Harlan's opinion for the Court stated that the defendant's “plea of guilty did not, of
course, waive his previous [constitutional] claim.” 390 U. S. 85, 87, n. 2, 88 S. Ct.
722,19 L. Ed. 2d 923,1968-1 C.B. 615.
Thus the state violated my constitutional rights and lacked jurisdiction. “Judgment
is a void judgment if court that rendered judgment lacked jurisdiction of the subject
matter, or of the parties, or acted in a manner inconsistent with due process, Fed.
Rules Civ. Proc., Rule 60(b) (4), 28 U.S.CA., U.S.C.A. Const. Amend. 5 - Kiugh v.
U.S., 620 F.Supp. 892 (D.S.C. 1985).” “A void judgment is a nullity from the beginning
and is attended by none of the consequences of a valid judgment. It is entitled to no
respect whatsoever because it does not affect, impair, or create legal rights." Ex parte
Spaulding, 687 S.W.2d at 745 (Teague, J., concurring).”
(l) When the detective posted an ad on adult entertainment site “teen seeks
LTR with older W4M” he violated equal protection clause of Civil rights act,
14th amendment and Omnibus Crime Control and Safe Streets Act of 1968
by targeting certain age group of society out of population specifically men
16

of older age. The title of ad and subsequent action against equal protection
of the law i.e. invidious discrimination. As he deliberately targeted
particular sex and age out of population specifically older men. The record
shows the State of Virginia at least a recipient of Federal assistant October
28, 1981, Serial No. J~97~24. The assistance not limited financially alone
but including any kind of training from Federal Government thus denial of
equal protection is invalid.
(2) When 1 asked the detective more than three times whether the person I am
communicating is a member of law enforcement he denied. In other words
I am begging him the same protection as the person he represented. When
asked specifically by not disclosing his identity, he violated equal protection
clause of 14th amendment by favoring one citizen over others treating me
differently than the person he intended to protect and not protected me.
Thus his act is invidious discrimination. "Therefore, any attempted exercise
of a police power which resulting in denial of equal protection is invalid.”@
Constitutional law 354.
(3) The detective not caught me in a crime scene as he provided, in this case
the house #303. As I refused to go into the crime scene and decided to leave
a public parking lot, then they caught me in my own vehicle in violation of
4th Amendment. If the facts on his side he would have said that he caught
me in the house he arranged. Now he claimed a predetermined place which
lacks specificity? The word is purposefully chosen and dubious to hide the

17

fact. Thus neither the crime committed nor I was in crime scene. Obviously
the crime would not be committed but to be valid crime, I would be in a
crime scene to meet whoever there. When he caught me outside the crime
scene in my own vehicle he acted in his official capacity. By then he is no
more minor but a police officer. Here the officers caught me in my own
vehicle violated 4th amendment. Thus State lacks jurisdiction as they
violated my constitutional rights. Michael C. v. Gresbach, 526 F.3d 1008
(7th Cir. 2008), Katz v. United States,389 U.S. 347 (1967), People v.
Krueger, 175 Ill. 2d 60 (Ill. 1996), People v. Ramirez, 148 Cal.App.4th 1464
(Cal. Ct. App. 2007), State v. Gutierrez, 116 N.M. 431 (N.M. 1993), Hudson
v. Palmer,468 U.S. 517 (1984), Marron v. United States,275 U.S. 192
(1927), Dorwart v. Caraway,966 P.2d 1121 (Mont. 1998).
By definition of 14th amendment the detective is not “any person” rather a
member of the State governing body, thus the detective not qualified to be
“any person” by that the charge is unconstitutional. The United States
constitution defined those who are working for government as legislature,
executive, or judicial Authorities of State and those working from them as
stated “The prohibition of the amendments extend to the every
departments of state and every officer or agent by whom the power of the
state exerted”. It did not said them as “any person”. Thus the charge is
unconstitutional as the detective failed to be “any person”.

18

“Exparte Virginia, 100 U.S. 339, 346 (1880). “A State acts by its legislative,
its executive, or its judicial authorities. It can act in no other way. The
constitutional provision, therefore, must mean that no agency of the State,
or of the officers or agents by whom its powers are exerted, shall deny to
any person within its jurisdiction the equal protection of the laws. Whoever,
by virtue of public position under a State government, deprives another of
property, life, or liberty, without due process of law, or denies or takes away
the equal protection of the laws, violates the constitutional inhibition; and
as he acts in the name and for the State, and is clothed with the State’s
power, his act is that of the State.” Id. at 346-47, Ferguson v. Skrupa, 372
U.S. 726, 732 (1963)”. In the above explanation, no one working for the state
called “any person” thus the charge code is void.
(4) When the detective walk out of crime scene (house # 303) and knocking
through my driver side window of my vehicle the role of him being a minor
ended. At that point, he was not alone but with three other police officer
including a female. When he knocked in my car window, he declared himself
to me “Loudon county police officer” not a minor. That was the only point
we first come into contact while he was acting in his official capacity as
police officer. That is where he seized me and searched my property without
warrant where they violated my constitutional right of 4th amendment. If
not, let the state prove under oath with evidence. Thus The State lacks
jurisdiction to prosecute me. “A void judgment which includes judgment
19

entered by a court which lacks jurisdiction over the parties or the subject
matter, or lacks inherent power to enter the particular judgment, or an
order procured by fraud, can be attacked at any time, in any court, either
directly or collaterally, provided that the party is properly before the court.
See Long v. Shorebank Development Corp., 182 F.3d 548 (C A. 7 HI. 1999).”
Thus 1 ask this court to dismiss or void the conviction as the state violated
my constitutional rights and lacked jurisdiction to convict me in their court
room. A judgement or order entered by a court lacks jurisdiction of the
subject matter is a nullity and may be impeached directly or collaterally by
all persons, anywhere at any time or any manner. Upon a statute being
declared unconstitutional on its face, conviction based there on void.” 62
va.App.793, Saunders V. Commonwealth, February 4, 2014. (Court of
Appeals of Virginia, 2014). ‘This cannot be ignored its fact recorded!
Judgment is a void judgment if court that rendered judgment lacked
jurisdiction of the subject matter, or of the parties, or acted in a manner
inconsistent with due process, Fed. Rules Civ. Proc., Rule 60(b) (4), 28
U.S.C-A., U.S.C.A. Const. Amend. 5 —Klugh v. U.S., 620 F. Supp. 892
(D.S.C. 1985).”
I was over 500 meters away and refused to go into crime scene yet caught
up in my own vehicle. I never saw the so called “girl” yet the officer caught
me in my car as I decided to leave- see the truth Exh. 11. The petition for
writ of certiorari either should be granted or altogether to issue a void
20

judgment as the State lacked subject matter jurisdiction in multiple
violations of constitutional rights.
Respectfully submitted,

Daniel Tekle
17^ May, 2021

21

Facts and Exhibits Appendices

1

E

Charge code void: A detective is not qualified to be called "anv person” while using public
services-Time and toots

I was charged according to Virginia Code 18.2-374-3 "it shall be unlawful for any person 18 years of age
or older to use a communication system, including but not limited to computers or computer networks
or bulletin boards, or any other electronic means, for purpose of soliciting anv person he knows or has
a reason to believe is a child less than 18 years of age for...".Here my argument is that Detective Daniel
Troxell does not qualify the definition of "any person" as constitution of United States described those
who work for state either officer or agent of State thus anyone working for state not qualify the
definition of "any person". Accordingly a police officer is not "any person" as it was explicitly prohibited
to solicit a crime against the citizens of the United States. When I challenged the State's law, the
attorney General office of Virginia in response to 4th Circuit page 16 line 10 admitted that "Because
Tekle raised contentions involving matters of state law..." "Thus the legislature dearly did not intend
that the victim must be an actual child; the defendants' solicitation of sexual behavior from a person
that he believes is a child constitutes the behavior that the legislature intended to prohibit." But that
"any person" not a police officer otherwise should specify including state government.
"Tekie cannot overcome his sworn statements during the plea colloquy and his written statements in
the plea memorandum "A response from Attorney General on Tekle V. Clarke 180265 page 20, in
response to supreme court of Virginia on May 14, 2018. And plea constitute formidable barrier in
subsequent collateral proceedings.

&J.
19

9

1

y

•?

a

t

In response to my petition to the Federal court, the State of Virginia admitted that in their response
Tekle v. Clarke 3:18CV694 page 18 @#44 "In reviewing a habeas petition. Federal courts must presume
the correctness of State court's factual determinations unless the habeas petitioner rebuts the
presumption of correctness by clear and convincing evidence." Green v. Johnson, 515 F.3d 290,299 (4th
Cir.2008).Yet I presented to the Federal Court that I did not went to crime scene (nor I met the person
in the house the officer provided), they ignored my response and concluded the way they wanted to
do. I never arranged the meeting place nor stepped out of my vehicle rather refused to leave the parking
lot. See my response dated 26th September 2019 page 28 line 12-14 and fact of evidence of email Exh.ll.

2

"I'm not coming to parking lot. Either vou come to me or just leave." Tue. Nov 1.2016 at 6:29PM
(The crime scene 75 plaza street Building J. House #303).

Just six minutes before caught up in my own vehicle wherever he lured said the above Statement. In
his own word he confirmed that I was not in crime scene and as long as I refused to go into "...just
leave". Accordingly in his own word I am free man as long as I refused to go into the so called "girl".
That I was not in the crime scene and whatever done thereafter is in violation of my 4th amendment
right. Thus I was not in crime scene where the supposedly "girl" lured. This place was arranged by Det.
Daniel Troxell see Exh 10 in my response to the Supreme Court of Virginia dated June 6th 2018, Tekle V.
Clarke 180265. However, I clearly refused to go the meeting place arranged by the Police officer and
caught up in my own vehicle, See the email exchange attached in Exh.ll. Neither the government
prosecutor nor the judges involved in this case proved that I was indeed in a crime scene in this case
house #303.Then how in the world without the crime scene and evidence of proof the judged against
me criminal. Neither I committed the so called crime nor stepped out of my own vehicle rather decided
to leave the public parking lot. See my refusal in the email interaction Exh.ll. Even the detective who
setup ail this incidence admitted in the criminal complaint that "On 11/01/2016, Tekle arrived at pre­
determined location.... " if He would have caught me in the crime scene he would have stated the house
20

*
«

►

r

♦

*
*

*

&

v

as he meticulously designed to ruin my life. Neither He stated that he caught me in my own vehicle?
Why he ignored that fact and why the judges not interested in facts I presented to them. Thus I did not
committed the crime and the State does not have jurisdiction to pull out of my car and prosecute me.
In the proffer of fact sheet Mr. Tekle arranged a meeting place. When I encountered that neither I
arranged nor meet the detective where the address detective arranged The 4th circuit court acted as a
prosecutor instead of truly how we meet together, in defense of the State argued that "Thus, the proffer
of facts does not suggest that Tekle himself selected the meeting place, just that agreed to meet
Detective Troxell at the arranged place and time. Nor does the proffer of facts specifically state how
detective Troxell and Tekle eventually came into contact with one another."Tekfe V. Clarke 3:18CV694
at page 22. (4th Cir.2020).By admitting that statement this court unable to verify that how we meet?
This Statement particularly important to me

as none of them presented that I indeed meet the

detective in a crime scene (house #303). Besides none commitment of crime, I was not even in the crime
scene. Thus there is no crime without being physical present in crime scene. Therefore, I ask this court
to dismiss the case as they pulled me from Street against my constitutional protection. Further, the
court concluded that '"The Court discerns no unreasonable application of the law or unreasonable
determination of facts In the supreme Court of Virginia's rejection of this claim." Yet this court failed to
distinguish my claim that:
1) I never went to the crime scene (house #303), when knocked in my car acted as an officer.
2) The detective failed to provide equal protection clause while I asked him multiple times.
3

When the detective walk out of crime scene. He is no more minor, rather a law enforcement

The moment the detective walked out of the crime scene house #303, his role of being a minor ended
and there after acted in his official capacity. By extension he caught me from another state. While he
was in contact with me not alone but with three other officers. When he caught me in my own vehicle.
21

£3

he violated my 4th amendment right. Exh. 11. Any evidence obtained through that unlawful arrest, such
as a confession, will be kept out of the case. Nonetheless the state lacks jurisdiction, as they violated
multiple constitutional clause.

4

The State violated mv constitutional right of equal protection clause of 14th amendment

1 explicitly asked the detective more than three times Exh. 2 & 3 that the person I am communicating is
a member of a law enforcement, he denied. By denying to identify his identity, the detective violated
the equal protection clause of 14th amendment. According to the constitutional law@802 "The principal
purpose of equal protection clause to ensure that all citizens are not subject to arbitrary or
discriminatory state action, it relates the individuals and persons, "the least deserving as well as the
most virtuous." Thus the person he represented might be the least deserving and I might be the most
virtuous but being asked more than twice, by not disclosing his identity, he being a member of law
enforcement, he treated me differently than the person he intended to protect. Thus the state violated
my constitutional rights and lucks jurisdiction to hale into their court room and conviction. I ask this
court to dismiss/void the case as they lacks jurisdiction of subject matter.
5

The State lacked substantive evidence to convict me except guilty plea

In admitting the ineffectiveness of my counsel, the state Attorney General office stated in their
response to the Supreme court of Virginia Tekle V. Clarke 180265 dated May 14th 2018 page 14 #25 "
Manifestly. Tekle could have challenged the legality of detective Troxell's deceptive tactics rather than
pleading guilty" By stating that statement the State on its own term admitted that the government
deceived the citizens of United States. Thus in lacking substantive evidences and facts subsequently in
#26 " Tekle's plea resulted in self-supplied conviction which waived anv defenses other than those
based upon jurisdiction etc...." Thus they left with my guilty plea as they claimed the only weapon to
ruin my life. Toilett V. Henderson, 411 U.S. 258,267(1973). Now in rebutting their core argument "A plea

22

of guilty to a charge does not waive a claim that, judged on its face, the charge is the one which the
state may not constitutionally prosecute." Class V. United States 138 S. ct 798, N.3 The Supreme court
of the United States, October 14th, 2017, United States V. Montilla, 870 F.2d 549, February,1989 (U.S.
Cir. Court 1989). As stated in my claim, "the claim does not focus upon case related constitutional
defects that occurred prior to the entry of guilty plea. The claim is called into question the government's
power to constitutionally prosecute him because the claim, challenged the government's power to
criminalize petitioner's (admitted) conduct." Any evidence gathered In violation of 4th amendment is in
admissible and the judgment is void.

Where officer of the state of Virginia violated the constitutional rights of citizens of United States and
without occurrence of alleged crime, not been in crime scene and without proof of evidence under
what circumstances does the state and its court be able to detain and sentence the citizens of the United
States? The constitution of the United States prohibits the State and its apparatus completely to
instigate crime. Neither of the dependents nor the judges involved in this case proved that I (Petitioner)
was indeed appeared in the crime scene. How State's multiple violation of constitutional rights ignored?
6.

No Statute limitation for Constitutional violation (Due process!

Generally, a judgment In a criminal case may not be attached collaterally. However, a party may assail
a void judgement at anytime, by direct or collateral assault. A court lacks jurisdiction to enter a criminal
judgement if the judgement is predicated upon unconstitutional or otherwise invalid statute or
ordinance. A judgement or order entered by a court lacks jurisdiction of the subject matter is a nullity
and may be impeached directly or collaterally by all persons, anywhere at any time or any manner.
Upon a statute being declared unconstitutional on its face, conviction based there on void." 62
va.App.793, Saunders V. Commonwealth, February 4,2014. (Court of Appeals of Virginia, 2014)

23

7

Opinion and Facts of Violation of constitutional Rights (Orchestrated, encouraged, lied.

judged and destroyed bv Government)
1.)

Orchestrated bv Government, Yet not proved

Orchestration simultaneously empowers intermediaries and provides the orchestrator soft influence
over them. It blends into delegation as orchestrators gain stronger control over their intermediaries.
supports and steers their actions. The assumption is that the orchestrator must select Intermediaries
based on their goals, and therefore may have to compromise on their capabilities. Given its lack of hard
control, the orchestrator depends on intermediaries that are intrinsically motivated to work in concert
with the orchestrator. This shifts the information problem from one of monitoring an agent's
performance to one of selecting an intermediary with similar goals in the first place. Often the
orchestrator must work with intermediaries that are partly or completely incapable of performing the
required tasks. The orchestrator will try to improve intermediary performance through appropriate
forms of support. Orchestration is viable because the large pool of potential intermediaries enhances
the prospects of finding one that Is both willing and able to advance the orchestrator's goals.
Orchestration's dependence on voluntary enlistment makes it vulnerable to intermediary incapacity:
the available intermediaries may be willing to advance the orchestrator's goals, but incapable of making
any useful contribution. From this perspective, orchestration appears more appealing, because it
creates webs of mutual dependence, reducing the likelihood of unilateral and extreme action. In sum,
the attractiveness of orchestration depends on both circumstances and perspectives. The Government
actors that lack the ability to delegate, or lack strong monitoring and enforcement capacities, will turn
to orchestration to achieve their goals. {If suitable intermediaries are available). Thus, I am victim of
the State of Virginia.

24

2.)

Encouraged bv government

I am not a monster that devouring kids rather the government ruined my life by orchestrating.
encouraging, expediting to see my misery. I never met anyone of that age in my entire life nor my DNA
or any crime found in my records. Government supposed to encourage and facilitate ways to success of
citizen's peace, security and advancement. In contrast the State of Virginia betting for demise of its
citizens. Being on a dating site by itself is nothing wrong but those encourage people like me and rejoice.
make family burden to society. Now I am ineligible to work while they rejoice. They did not worried for
tax payer's money. Here are the encouragements of innocent citizens:
a) Why you look for older, he answered "Well I've kissed a couple times. But boys my age are sooo
lame ya know" on Oct 28th, 2016 at 10:50PM. Then followed up "you have to take a lead." at
9:12PM.
b) When I encouraged the so called "Girl" to focus in her education, he answered "Are u a
doctor or something? U know a lot. My school work? Why u worried about that?" In
insisting me to come over quickly to ruin my life, he said "Are u only free after 5pm or
weekends then? Weekends are seriously the hardest be I usually go to my dads house In
Winchester." On Oct 29th, 2016 at 10:37PM.Exh. 13 &17.
3.)

The State government Lied and violated mv constitutional right of l8t, 4th. 5th. 6th.
and 14th Amendment.

When the government official lies about his identity, those lies violate constitutional protections
provided in the Fourth, Fifth and Sixth Amendments. Specifically. I asked the detective more than three
times whether I am communicating with a member of law enforcement, he lied. This lies violated mv
constitutional rights equal protection of laws. Bv this he treated me differently from the person he
intended to protect, thus he violated the equal protection of the laws. If I was not asked his identity
that is another story. I asked his identity on Oct 30,2016, at 3:30PM, 8:57PM, 9:01PM, 9:08PM and Oct
31st, 2016 at 4:34PM?ln all those situation, he lied or denied to me. Exh.2,3 &4. The detective failed to
25

serve all group of without impartiality. Thus the charge is unconstitutional and the States lacks
jurisdiction to convict me. My email communication with anyone is protected by 1st amendment I did
not met physically or being In crime scene. Helen Norton, Government Lies and the Press Clause, 89 U.
Colo. L. Rev. 453 (2018).
"The right of the people to be secure in their persons, houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no warrants shall issue, but upon probable cause.
supported by oath or affirmation, and particularly describing the place to be searched, and the persons
or things to be seized.''^** Amendment). They caught me up without warrant from mv personal
property (Vehicle).
I refused to go into crime scene and send an email titled "I'm about to leave? Then he answered "You're
freaking me out. I do not want to get kidnapped and stuff just come over to me?" on Nov. 1st 2016 at
6:26, then re-enforcing that truth, he said "I'm not coming to the parking lot. Either you come to me or
just leave" Nov 1st 2016 at 6:29PM. In his own statement, he affirmed my refusal to crime scene he
setup. Once he lost control, he and his three other colleagues methodically encircled and caught me in
my own vehicle in violation of 4th amendment. Thus the detective violated my 4th amendment right
pulling me from my own vehicle without court warrant. Exh.ll.Let the State prove with facts. If not.
they lacked jurisdiction.
"No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment
or indictment of a grand jury, except in cases arising in the land or naval forces, or in the militia, when
in actual service in time of war or public danger; nor shall any person be subject for the same offense
to be twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness
against himself, nor be deprived of fife, liberty, or property, without due process of law; nor shall private
property be taken for public use, without just compensation."(5th Amendment).! never ever stepped

26

*3

out of my own vehicle rather they caught me up from my own vehicle as I refused to go into crime
scene setup by detective. No proof that I was in a crime scene.
"In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the crime shall have been committed, which district shall
have been previously ascertained by law, and to be informed of the nature and cause of the accusation;
to be confronted with the witnesses against him; to have compulsory process for obtaining witnesses
in his favor, and to have the assistance of counsel for his defense." (6th Amendment). Thus t did not
committed the crime by not being in a crime scene that is House#303.
4.)

Judged without evidence.

Judged without proof of evidence that I was in a crime scene. They used my lack of knowledge and
Ineffective assistance of counsel (working for government) that I plead guilty. My guilty plea is the only
evidence, the rest is protected by constitution of United States including my email communication (1st
Amendment) as long as I was not in crime scene.
5.)

Destroyed bv State Government lies waiting to perish as ineligible to be hired.

Today 1 and my whole family pay the price of the State's lies and deceit. Just run my back ground and I
am ineligible to be hired anywhere in USA. I was Imprisoned for 5 years, right now unable to get into
society and get viable job to help my family. Because of probation, I am prisoner in my own house
having a curfew from 10:00AM-6:00AM.Because of government orchestration, today I or part of my
family in one way or other burden to State or Federal Government or else to be perished. My misery.
lack of work is the State's rejoice. I became from bread winner to my family burden to society because
of government lies and deceit. Besides their lies and deceit, I do not have any kind of record. See States
own admission that "Manifestly, Tekle could have challenged the legality of Detective Troxell's
deceptive tactics rather than pleading guilty." see Attorney General's response to Supreme court
27

Virginia dated on 14th May, 2018, Tekle V. Ciarke 180265 page 14 at #25. On the same page #26 the
State said "Tekle's plea resulted in a self-supplied conviction which waived any defenses other than
those based upon Jurisdiction." With this statement they are admitting that the state deceived the
citizens of United States and complementing my argument that that my counsel's ineffectiveness. Yet
the Supreme Court of Virginia and Federal court ignored my plea

6.) The only available tool far State is mv Guilty plea (Ineffective assistance of counsell
that gained bv threat and coercive practice

They do not have any other tools in their bucket with the exception of my guilty plea which
orchestrated, supported by State and my own counsel (ignored my documents for their prosecutorial
favor) in violation of my constitutional rights. Let them prove that besides non-commitment of crime
that I was in crime scene, i was pulled out from my own vehicle thus the State lacks jurisdiction to puil
me into their court system to convict me.

7.) The State does not have authority to hale citizens to its Court room and convict

"There are exceptions to this rule, however, a person may despite a valid guilty plea, pursue a certain
type of claim that has been variously defined as a claim that attacks the state power to bring the
indictment at all, that protects the defendant's right not to be haled into court, and that the charge is
the one which the state may not constitutionally prosecute." Welsberg v. Minnesota, 29 F.3d 1271,
1279 (8th Cir. 1994). United States v. Broce, 488 U.S. 563,575,109 S. Ct. 757,102 L.Ed.2d 927 (1989)

"We have done so far the well-established reason that a guilty plea does not waive the right of the
defendant to challenge the constitutionality of statute under which he is convicted. See "Menna v. New
York, 423 U.S. 61, 62 n. 2,96 S. Ct. 241,46 L.Ed.2d 195 (1975)", United States v. Knowles 29 F.3d 947,
August 10,1994 (U.S. Appeals 5th & 11th Clr.l994).200 F.3d 871, United States v. drew, November 15,
1999.(U.S Appeals of District of Columbia,1999).

g/D
28

8

"A guilty plea, bv itself, does not bar a federal criminal defendant from challenging the

constitutionality"'
Class vs. United States
"In Class vs. United States "A written plea agreement set forth the terms of Class' guilty plea, including
several categories of rights that he agreed to waive. The agreement said nothing about the right to
challenge on direct appeal the constitutionality of the statute of conviction. After conducting a hearing
pursuant to Rule 11(b) of the Federal Rules of Criminal Procedure, the District Court accepted Class'
guilty plea and sentenced him. Soon thereafter, Class sought to raise his constitutional claims on direct
appeal. The Court of Appeals held that Class could not do so because, by pleading guilty, he had waived
his constitutional claims. Held: A guilty plea, by itself, does not bar a federal criminal defendant from
challenging the constitutionality of his statute of conviction on direct appeal, pp. 3-11.
There, Justice Ames wrote that a guilty plea does not waive the right to argue that "'the facts alleged
and admitted do not constitute a crime against the laws of the Commonwealth/" Ante, at 5 (quoting
Commonwealth v. Hinds, 101 Mass. 209,210 (1869)). Does the Court agree with Justice Ames, or not?
Cite as: 583 U. S._(2018) 1"
Held: A guilty plea, by itself, does not bar a federal criminal defendant from challenging the
constitutionality of his statute of conviction on direct appeal. Pp. 3-11. (a) This holding flows directly
from this Court's prior decisions. Fifty years ago, in Haynes v. United States, the Court addressed a
similar claim challenging the constitutionality of a criminal statute. Justice Harlan's opinion for the Court
stated that the defendant's "plea of guilty did not, of course, waive his previous [constitutional] claim."
390 U. S. 85, 87, n. 2. That clear statement reflects an understanding of the nature of guilty pleas that
stretches, in broad outline, nearly 150 years. Subsequent decisions have elaborated upon it. In
Blackledge v. Perry, 417 U. S. 21, the Court recognized that a guilty plea bars some "'antecedent
29

constitutional violations/ " related to events (such as grand jury proceedings) that '"occu[r] prior to the
entry of the guilty plea/ " Id., at 30 (quoting Tollett v. Henderson, 411 U. S. 258, 266-267). However,
where the claim Implicates "the very power of the State" to prosecute the defendant, a guilty plea
cannot by itself bar it. 417 U. $., at 30. Likewise, in Menna v. New York, 423 U. S. 61, the Court held that
because the defendant's claim was that "the State may not convict [him] no matter how validly his
factual guilt is established," his "guilty plea, therefore, [did] not bar the claim." Id., at 63, n. 2
In Blackledge v. Perry, 417 U. S. 21,94 S. Ct. 2098,40 L. Ed. 2d 628, the Court recognized that a guilty
plea bars some "'antecedent constitutional violations. i

»

related to events (such as grand jury

proceedings) that "'occu[r] prior to the entry of the guilty plea.1" Id., at 30,94 S. Ct. 2098,40 L Ed. 2d
628 (quoting Tollett v. Henderson, 411 U. S. 258, 266-267,93 S. a. 1602,36 L. Ed. 2d 235). However,
where the claim implicates "the very power of the State" to prosecute the defendant, a guilty plea
cannot by itself bar it. 417 U. S., at 30,94 S. a. 2098,40 L. Ed. 2d 628.
Likewise, in Menna v. New York, 423 U. S. 61,96 S. Ct. 241,46 L. Ed. 2d 195, the Court held that because
the defendant's claim was that "the State may not convict [him] no matter how vaiidiy his factual guilt
is established," his "guilty plea, therefore, [did] not bar the claim." Id., at 63, n. 2,96 S. Ct. 241,46 L. Ed.
2d 19. In more recent years, the Court has reaffirmed the Menna-Blackledge doctrine's basic teaching
that "'a plea of guilty to a charge does not waive a claim that-judged on its face-the charge is one
which the State may not constitutionally prosecute.1" United States v. Broce, 488 U. S. 563,575,109 S.
Ct. 757,102 L. Ed. 2d 927 (quoting Menna, supra, at 63, n. 2,96 S. Ct. 241,46 L. Ed. 2d 19). Pp.
200 L. Ed. 2d, at 42-44
United States V. Montilla
"A claim that the applicable statue is unconstitutional or that the indictment fails to state an offense
are jurisdictional claims not waived by guilty plea."16 Fed.Appx.615: United States V. Nguyen, May 15,
30

2001(U.S Appeal 9th Cir.2001), 915 F.2d 549, Marzano V. Kincheloe, July 9,1990(U.S. Appeal 9th Cir.1989),
35F.Supp. 2d 1172: United States V. Tutor Intil., Inc. June 15,1998 U.S court of 9th 1998), 180 F.3d 514,
United States V. Spinner, March 25, 1999 (U.S. Appeal 3rd Cir.1999). The Indictment fails to state an
offense are jurisdictional claims not waived by the guilty plea. A plea of guilty to a charge does not
waive the claim that, judged on its face, the charge is the one which the state may not constitutionally
prosecute. United Sates Supreme court has limited the doctrine to cases in which the judge could
determine at the time of accepting plea, from the face of the indictment or from the record, that the
government lacked power to bring the indictment.870 F.2d 549, United States V. Montilla, February 6,
1989. (U.S. Appeals 9th Cir.1989).
9

The State lacks jurisdiction as they violated mv constitutional rights.

1-The state violated my constitutional rights as I refused to go into the supposedly crime scene which
is house #303 the detective provided. They lacked evidence and fact to claim that I was indeed in house
Number 303. After I refused and decided to leave the public parking lot they caught me in my own
Vehicle thus I never went to the crime scene and not committed the crime.
2-The detective being asked more than three times whether he is a member of law enforcement, he
denied to identify himself thus violated equal protection clause of the 14th amendment. He treated me
differently than the person he intended to protect. Thus the charge is invalid specifically I asked him
more than three times whether the person, I am communicating a member of law enforcement. By not
disclosing his identity, the law enforcement discriminated me while in enforcing the law.
3-The Detective is not "any person" as thus he is a member of state government, he is constitutionally
prohibited to instigate a crime against citizens of United States. Specifically detective does not qualify
the definition. Accordingly, those who work for state government defined as 'The Prohibition of

31

amendment extends every department of state and every officer or agent by whom the power of the
state exerted."
Based on those three accounts alone the State does not have Jurisdiction to drag me to their court room
and convict me. As facts speaks for itself neither the detective nor The Attorney general of the State
proved that they caught me in the crime scene house # 75 Plaza Street B-J House # 303.You cannot
prosecute someone without being present in crime scene or crime committed. Besides that I openly
asked the detective whether the person I was communicating online is a member of law enforcement
' or not, he denied to identify his Identity thus he treated me differently than the person he intended to
protect. Thus he violated my constitutional right over the other person. According to the 14th
amendment constitutional law states that "Therefore, any attempted exercise of a police power which
resulting In denial of equal protection is invalid."® Constitutional law 354.Thus the State violated my
constitutional rights and lacks jurisdiction to prosecute me In their courts room.
10

The Supreme Court of Virginia denied mv Habeas petition on guilty plea alone.

"In claim (III), petitioner contends the investigating detective, in collaboration with the police
department, the Magistrate, the commonwealth's Attorney, Loudoun County, and the judicial system,
violated petitioner's constitutional rights when the investigating defective pretended to be a girl under
the age of fifteen during his electronic interactions with petitioner. The court holds claim (III) is barred
because a voluntary and intelligent guilty plea waives all non-jurisdictional defenses antecedent to a
guilty plea. Peyton V. King, 210 VA, 194,196-97,169 S.E. 2d 569,571 (1969). Accordingly, the petition is
dismissed and the rule is discharged."

32

11

The Fourth Circuit Court-Richmond Virginia denied mv Habeas corpus petition and Transcript of

appealability.
Though I presented for the 4th Circuit court all the facts they too denied my petitions without proving
the facts as presented. In denial my petition, the court raised that its limitation of authority 'The
Antiterrorism and effective Death penalty Act ("AEDPA") of 1996 further circumscribed this courts
authority to grant relief by way of habeas corpus. Specifically, "[S]tate court factual determination are
presumed to be correct and may be rebutted by clear and convincing evidence." Further, "additionally.
under 28 U.S.C 2254(d), a federal court may not grant a writ of habeas corpus based on any claim that
adjudicated on the merits in the state court unless the adjudicated claim:

(1) Resulted in a decision that was contrary to, or involved an unreasonable application of
clearly established Federal law, as determined by the supreme court of United States; or
(2) Resulted in a decision that was based on an unreasonable determination of facts in light of
the evidence presented in the State court proceedings".Tekle V. Clarke 3:18cv694 page 7,
April 30th, 2020 (U.S 4th Cir.2020).

In unpacking this argument neither the state Circuit nor The Supreme Court of Virginia proved in fact I
was in the crime scene. The only fact, they relied the guilty plea I accepted due to ineffective assistance
of counsel. Further the Federal court without looking the facts jumped into conclusion that "A guilty
plea constitutes a waiver of all non-jurisdictional defects, including the rights to contest the factual
merits of the charges.) By citing United States V. Martinez, 424 F. App'x 208,209.But I repeatedly argued
to this court that neither I arranged the meeting place nor even stepped out of my own vehicle, rather
I decided to leave the public parking place, yet caught up in my own vehicle. Exh.ll. While assessing
the proffer of fact challenge "Nor does the proffer of Facts specifically state how Detective Troxell and
Tekle eventually came into contact one another." Despite the fact that the State violated my 4th

33

amendment right pulling me from my own vehicle without warrant, violation of equal protection of
laws (while the detective denied to identify his Identify when asked) and discrimination by age. Now I
am challenging that the State lacks authority to puli into their court's room to convict me. Weisberg v.
Minnesota, 29 F.3d 1271,1279 (8th Cir. 1994).
12

Federal Appeals Court for the Fourth Circuit denied for filing time though I filed on time (from

date of 4th circuit decision April 30th -June 26.2020 to mv response is 54 davs.
The Federal Appeals Court denied my appeal for certificate of Appieaibility on filing procedural grounds
though I filed on time. The 4th Federal Court passed judgement in my case on April 30th 2020. They
actually printed and mailed out on May 1st, 2020 Exh.51.This is during the height of the State's
Government emergency declaration for COVID19 and complete institutional lockdown. The mail arrived
to the institution where I am at on May 6th, 2020 Exh.52. Though exactly, I do not know when I received
the actual copy, I submitted my appeal to the Prison booth on June 26th, 2020 Exh.53 &54 going through
extra length while the court itself in similar modifications. During lockdown and thereafter until I leave
the compound access to legal materials and counsel in completely closed. Yet I responded to the appeal
court at least within time frame 54 days (May 29 Memorial day & mailed on May 1st + June 26) the
actual mail was received by U.S Appeal Court on July 6th, 2020 Exh.55. This is due to the fact that the
State is under National Emergency declaration because of COVID19 and staff restriction in prison.
Besides that the institution's Money order processing Machine breakdown, the mail stayed until July
1st, and 2020.Exh.56-A & B. Still left on time. This is beyond my control, breaking extra-ordinary barrier
I still managed to follow the law. Due to my cry and urgency of matter, the institution went extra­
ordinary steps and issued a check rather than regular Money order Exh.56-A &B. This could be easily
verified. I ask this court take into account the lists below and grant my petition:
1- I submitted to the institution's mail service on time on June 26th, 2020 within law.

34

2- The extra-ordinary circumstances of COVID and institution's Lockdown. This is
extraordinary circumstances and I trigger due process implications.
3- Due to Money order machine break down-check is an evidence instead of money order.
4- The State Government's Emergence declaration due to COVID19 staff restriction.
5- The judgment mailed on next day and May 25th, 2020 Memorial Day, thus 54 days.
6- During COVID19 Emergency lockdown all legal services in the institution closed.
7- That I do not have liberty to file electronically.
8- If submitted by an inmate confined in an institution, a document is timely filed if it is
deposited in the institution's internal mail system on or before the last day for filing and is
accompanied by a notarized statement or declaration in compliance with 28 U. S. C. §
1746 setting out the date of deposit and stating that first-class postage has been prepaid.
Exh.57.
13

The charge code is unconstitutionai-The Detective is not "anv person"

My online interaction was with not with actual minor rather a police officer who is part and parcel of
State Government thus not qualify the definition of "any person". "The 14th amendment prohibits any
act by state which abridges the privileges and immunities of citizens of United States, whether such act
by legislature, executive or judicial authorities of State. The Prohibition of amendment extends every
department of state and every officer or agent by whom the power of the state exerted." Constitutional
law @753.According to this statement by definition those who are working in any capacity not
considered as "any person" rather legislature, executive, officer or agent. Thus he is either officer or
agent of State government and thus not be qualified to be "any person". If he was indeed "any person,
he wouldn't be able to drag me to Loudoun county jail and be able to file a criminal complaint against
me. As the Governor of State of Virginia cannot claim himself as both Governor of the State of Virginia
and "any person" at the same time. Thus, he cannot be "any person" and an agent of the state at the
35

Bf?'

same time. When I challenged the charge, the Attorney General office of Virginia in response to 4th
Circuit page 16 line 10 admitted that "Because Tekle raised contentions involving matters of state law..."
By this definition, I challenge the constitutionally of the charge code definition and resulting conviction.
In reversing the prior judgement of in Manna v. New York "we have done so for the well-established
reason that a guilty plea does not waive the right of defendant to challenge the constitutionality of the
statue under which he convicted." Manna V. New York 423 U.S. 61,62-63 n.2,96 S. CT 241,242 N.2,46
L. Ed 2d 19(1975).Thus I ask this court to dismiss the charge as the detective constitutionally does not
qualify the definition of "any person".

14

The law enforcement violated the civil rights act law of Equal protection

When the detective posted an ad in adult entertainment section of craigsiist titled "teen seeks LTR with
older W4M" violated the civil right acts law. The law says "The element of intentional or purposeful
discrimination is necessary to establish a denial of equal protection of Law. This may be shown, inter
alia, by extrinsic evidence establishing a discriminatory design to favor one individual or class over
another. @ Civil Rights Act law 8. When the detective posted teen seeks LTR with older, he intentionally
or purposely identified to entrap the older men out of the population. The ad intentionally and
purposefully targeted particular age and sex older man out of population. But the statue not identified
by age and sex rather "any person". This action itself violates the civil action law of denial of equal
protection, thus it's invalid. Now because of his purposeful act while they rejoice in violating my right I
am In misery. Besides losing everything and served 5 years in prison, right now because of probation I
am prisoned in my house. Unable to get a job nor able to get away from my house from 10pm-6am.Thus
"Equal protection of the laws is the right of individual not merely of group of individuals, or of body of
persons according to their number." Mitchell V. United States (1941) 313 US 80, 85 L ED 1201, 615 CT
873.

36

Besides this being he is a member of law enforcement, he denied to disclose his identity in violation of
equal protection of law. Equal protection of 14th amendment may not prohibit state to classify citizens.
however, when asked the officer must identify his identity. By failing to identify his identity he treated
me differently thus equal protection of law violated. Thus the charge is invalid. And the State lacked
jurisdiction to puli me into their court system to convict me.

The merit of case has to be seen on the basis of facts and constitutional violation over states lies and
deceit. The larger picture the implication of constitutional violation of policing to the nations. I an
innocent yet succumbed to lies and deceit of state along bandits working for State.

06-1082 VIRGINIA V. MOORE DECISION BELOW: 636 S.E. 2d 395 LOWER COURT CASE NUMBER: 052619
Does the Fourth Amendment require the suppression of evidence obtained incident to an arrest that is
based upon probable cause, where the arrest violates a provision of state law?

EXPEDITED BRIEFING SCHEDULE CERT. GRANTED 9/25/2007

"contrary to, or involved an unreasonable application of clearly established federal law as
determined by the US Supreme Court; or

"Based on an unreasonable determination of the facts in light of the evidence presented in
the state court proceeding.

Nor do Class' claims focus upon case-related constitutional defects that "'occurred prior to the entry
of the guilty plea/" Blackledge, 417 U. S., at 30,94 S. Ct. 2098,40 L. Ed. 2d 628.

"This Court reversed. Citing Blackledge, supra, at 30,94 S. Ct. 2098,40 L. Ed. 2d 628, the Court held that
"a plea of guilty to a charge does not waive a claim that—judged on its face—the charge is one which
the State may not constitutionally prosecute." Menna, 423 U. S., at 63,96 S. Ct. 241,46 L. Ed. 2d 195,
and n. 2. Menna's claim amounted to a claim that "the State may not convict" him "no matter how

37

6I 9

This holding flows directly from this Court's prior decisions. Fifty years ago, in Haynes v. United States,
the Court addressed a similar claim challenging the constitutionality of a criminal statute. Justice
Harlan's opinion for the Court stated that the defendant's "plea of guilty did not, of course, waive his
previous [constitutional] claim." 390 U. S. 85,87, n. 2,88 S. Ct. 722,19 L. Ed. 2d 923,1968-1 C.B. 615.

OPINION

The decision of United States Court of Appeals for the 4th Circuit Court's denial of a certificate of
appealability and dismissal on filing procedural ground reported and unpublished on 22nd February,
2021. Appendices A1

JURISDICTION

Decision by United States Court of Appeals for the Fourth Circuit a certificate of Appealability is denied
and appeal is dismissed on 22nd February, 2021 by Robert E. Payne, Senior District Judge and the case
dismissed, and unpublished per curiam opinion. I invokes this court's Jurisdiction under 28 U.S.C. §1257
having timely filed this petition for a writ of certiorari within Ninety days of United States District Court
of Appeals for 4th District.

I exhausted both the State and Federal Courts in States. In times where police intend to lies and deceit,
prosecutors score points rather than justice and making deals with those counsel's engaged in abusing
their profession for monetary gain and judges rely on prosecutors than facts, society needs trust in their
government. When raised multiple times constitutional violations, judge give deaf ears, facts needs to
be told to those who stands for truth and fear the invisible God, be able to hear and serve justice to
those who in need. Thus the State court lacks jurisdiction and Federal courts failed to hear the truth.

6?-V
38

